No.

SUPREME COURT OF THE UNITED STATES

DANIEL T. MORGAN
Petitioner
v.
SHERI A. MORGAN
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPERIOR COURT OF PENNSYLVANIA

CERTIFICATE OF SERVICE

I, Anthony J. Vetrano, counsel for Daniel T. Morgan, certify that on July 26,
2019 I will have served the person identified below with: (1) three copies of Daniel
T. Morgan’s petition for writ of certiorari, via Federal Express; (2) three copies of
the appendix to such petition, via Federal Express; and (3) an electronic version of

such petition and appendix.

John C. Howett Jr., Esquire
Howett, Kissinger & Holst PC
130 Walnut Street
Harrisburg, PA 17108
gweaver@hkhlaw.net
717-234-2616
counsel for respondent, Sheri A. Morgan
 

Anthony@& Vetrano

counsel of record

Vetrano Vetrano & Feinman LLC
Suite 215

630 Freedom Business Center Drive
King of Prussia, PA 19406
tonyvetrano@vetranolaw.com
610-265-4441
